No.

IN THE
SUPREME COURT OF THE UNITED STATES

MR.JACK E.ALLEN

— PETITIONER

(Your Name)
VS.
COMMONWEALTH OF PENNSYLVANIA

— RESPONDENT(S)

PROOF OF SERVICE
JACK E.ALLEN

----------------, do swear or declare that on this date,
20
, as required by Supreme Court Rule 29 I have
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
or that party’s counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
I,

The names and addresses of those served are as follows:
DISTRICT ATTORNEY OF CLEARFIELD COUNTY/ATTORNEY GENERAL OF PA

I declare under penalty of perjury that the foregoing is true and correct.
Executed on

Mff

, x&j
(Signature)

PROOF OF SERVICE

,2021

DAY OF

I AM NOW THIS

SERVING THE FOREGOING WRIT OF CERTIORARI UPON THE PERSON
OR PERSONS AND IN THE MANNER INDICATED BELOW WHICH DOES
SATISFIES THE REQUIREMENTS OF UNI TEDOJBTATEBK SUPREME ft COURT
RULES/RULE 29(3).

VIA: FIRST CLASS MAIL

CLEARFIELD COUNTY DISTRICT ATTORNEYS. OFFICE
230 E.MARKET ST-/SUITE 210
CLEARFIELD/PA 16830
PENNSYLVANIA ATTORNEY GENERAL
15th FL,STRAWBERRY SQUARE
HARRISBURG,PA 17120
t

BRIAN SPENCER
PROTHONOTARY/CLERK OF COURT
P.O.BOX 549
CLEARFIELD,PA 16830
i

DATE

O

/i
JACK E

;LLEN DA-0984

SCI-p^UTZDALE
SMART COMMUNICATIONS/PA DOC
P.O.BOX 33028
ST.PETERSBURG,FL 33733

